HHS/OIG-Audit--"Review of Medicare Contractor's Pension Segmentation, General American Life Insurance Company, (A-07-99-02540)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation, General American
Life Insurance Company," (A-07-99-02540)
July 20, 2000
Complete Text of Report is available in PDF format
(822 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Beginning with Fiscal Year 1988 the Health Care Financing Administration incorporated
pension segmentation requirements into Medicare contracts. This final report
points out that the General American Life Insurance Company, a Medicare contractor,
understated the Medicare segment pension assets as of January 1, 1988 by $259,101.
Also, General American had not updated the Medicare segment pension assets beyond
January 1, 1988. We determined that the valuation of the Medicare segment pension
assets was $6,205,564 as of January 1, 1998. Accordingly, we recommended that
General American establish Medicare segment pension assets of that amount as
of January 1, 1998. General American officials concurred with our finding and
recommendation.